             OFFICE OF
             INSPECTOR
             GENERAL
             UNITED STATES POSTAL SERVICE




     Intelligent Mail: Realizing Revenue
              Assurance Benefits

                       Audit Report




                                            August 30, 2011

Report Number DA-AR-11-010
                                                                        August 30, 2011

                                                  Intelligent Mail: Realizing Revenue
                                                                  Assurance Benefits

                                                         Report Number DA-AR-11-010


IMPACT ON:                                   has to use more expensive manual
U.S. Postal Service revenue protection       processing when scan rates are low. If
and commercial mailers participating in      4.6 percent of total full-service IM
the Intelligent Mail (IM) program.           mailpieces cannot be processed on mail
                                             processing equipment, the Postal
WHY THE OIG DID THE AUDIT:                   Service would have to spend an
Our objective was to assess the IM           additional $165,607,452 in manual mail
program’s ability to achieve revenue         processing costs annually, or
assurance benefits.                          $331,214,904 over the next 2 years
                                             regardless of who is responsible for the
WHAT THE OIG FOUND:                          low scan rates.
The Postal Service postponed
implementing an original IM program          WHAT THE OIG RECOMMENDED:
objective (automated revenue                 We recommended the vice president,
assurance) to focus on implementing          Mail Entry and Payment Technologies,
other aspects of the program. With           establish timeframes for implementing
postmaster general approval, the Postal      enhanced automated verifications as
Service removed the automated                described in the original DAR, develop a
revenue assurance requirement from           tolerance level for low scan rates to use
the original Decision Analysis Report        for exception reporting, and develop a
(DAR). Without fully automating              process for identifying the cause(s) of
full-service IM verification, the Postal     these rates for customer follow-up as
Service may be unable to reduce the          warranted.
$293 million it spends annually on
business mail acceptance personnel           WHAT MANAGEMENT SAID:
salaries and benefits or confirm the         Management partially agreed with the
$26 billion in annual business letter mail   recommendations and plans to
revenue.                                     complete a proof-of-concept by January
                                             2013. The results will be the basis for
Our analysis of full-service IM barcode      requirements, system development, and
scan rates indicates that some mailings      deployment of automated verifications.
that met business mail acceptance
requirements exhibited low scan rates        AUDITORS’ COMMENTS:
when processed on mail processing            Management’s planned actions are
equipment. The Postal Service must           responsive to the recommendations;
develop a tolerance level for these rates    however, the timeline for planned action
to use for exception reporting and a         would defer implementation of a
process for identifying the cause(s) of      developed solution for several years.
the rates, which results in additional
processing costs. The Postal Service         Link to review the entire report
August 30, 2011

MEMORANDUM FOR:            PRITHA MEHRA
                           VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                           TECHNOLOGIES




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Intelligent Mail:
                           Realizing Revenue Assurance Benefits
                           (Report Number DA-AR-11-010)

This report presents the results of our review of the U.S. Postal Service’s Full-Service
Intelligent Mail Program (Project Number 11YG004DA000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

Attachments

cc: Ellis A. Burgoyne
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS




Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Original IM Program Revenue Assurance Requirement Should Be Reinstated .............. 2

IM Scan Rates Can be Used for Exception Reporting and Customer Follow-Up ............ 3

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

     Background ................................................................................................................ 7

     Objective, Scope, and Methodology .......................................................................... 7

     Prior Audit Coverage.................................................................................................. 9

Appendix B: Other Impacts ........................................................................................... 10

Appendix C: Management’s Comments ........................................................................ 11
Intelligent Mail: Realizing Revenue Assurance Benefits                                          DA-AR-11-010




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Full-Service
Intelligent Mail (IM) program (Project Number 11YG004DA000). Our objective was to
assess the IM program’s ability to achieve revenue assurance benefits. We conducted
this self-initiated audit based on strategic risks associated with the IM Program. See
Appendix A for additional information about this audit.

The Postal Service relies heavily on information technology to support its mission of
providing prompt, reliable, and efficient mail. IM barcodes (IMb) for mailpieces were
implemented in May 2009 and the enabling technology has been deployed to support
mail visibility in the Postal Service network. IM is the technology platform for the next
generation of mailing services, features, and products. Mailers and the Postal Service
gain end-to-end visibility into the mailstream with IMb.

The Postal Service offers two different IM service options: basic and full-service. Under
the basic option, mailers can use either the IMb or the POSTNET1 barcode on their
letters and flat mailpieces. Under the full-service option, mailers must apply unique IMbs
on their letters and flat mailpieces, trays and sacks, and other containers of mail.
Full-service mailers also must electronically submit postage statements and mailing
documentation. Additionally, a unique IMb on each mailpiece allows the Postal Service
to scan, track, and capture data on every mailpiece as it flows through the system –
giving true visibility into the mailstream. The Postal Service’s intent for revenue
assurance was to compare mail processing equipment (MPE) scan data to the mailing
data to verify that the mail is prepared as claimed by the mailer.

Conclusion

The Postal Service postponed implementing an automated revenue assurance for the
IM program to focus on implementing other aspects of the program. With the approval
of the postmaster general, the Postal Service removed the automated revenue
assurance requirement in the original Decision Analysis Report (DAR)2. Without this
automation, the Postal Service may not be able to reduce the $293 million it spends
annually on business mail acceptance personnel salaries and benefits or confirm the
$26 billion in annual business letter mail revenue.

Additionally, full-service IMb scan rate data indicates that some mailings that met
business mail acceptance requirements exhibited low scan rates when processed on
MPE. The Postal Service needs to develop a tolerance level for low scan rates to use
for exception reporting and a process for identifying the cause(s) of low scan rates. Low
scan rates result in additional processing costs since the Postal Service has to use

1
  POSTal Numeric Encoding Technique is the Postal Service’s developed barcode method to encode Zone
Improvement Plan (ZIP) Code™ information on mail that can be read for sorting by automated machines.
2
  Infrastructure to Support Intelligent Mail Barcodes, Service Performance & Seamless Acceptance.
                                                             1
Intelligent Mail: Realizing Revenue Assurance Benefits                           DA-AR-11-010



more expensive manual processing when the barcodes cannot be read by MPE
equipment.

Original IM Program Revenue Assurance Requirement Should Be Reinstated

In July 2008, the Board of Governors approved a $63.9 million DAR titled Infrastructure
to Support Intelligent Mail Barcodes, Service Performance & Seamless Acceptance
(original DAR) to create an infrastructure that automates several business mail
verification activities among other program requirements. Since this was an
infrastructure or sustaining DAR, it did not have a return on investment. However, the
Postal Service has since removed the enhanced/expanded automated verifications
requirement in the original DAR to focus on implementing other aspects of the IM
program. In June 2009, the Postal Service requested a modification to the original DAR
to change the milestone schedule and program scope. With appropriate approval and
notification, the modification removed the following requirement:

           For Full-Service option mail, this program proposes to obtain
           scan data received from MPE and compare it to mailing data
           received electronically to verify that the mail is prepared
           according to the prices claimed by the mailer. This system can
           automate presort, barcode quality, piece count, verifications and
           drop shipment validations. These verifications are currently
           performed manually or manually with automation assistance
           from the [mail acceptance]3 equipment.

Management told us they plan to reinstate the requirement for automated revenue
assurance. Management is developing plans to replace the current mail acceptance
process for full-service mailers with an automated comparison of electronic mailpiece
documentation with MPE scan data. Potential revenue recovery could be based on
mailer performance trends against applicable tolerances over time. However, the Postal
Service still needs to fully develop their plan, obtain funding, and establish a timeline for
implementation.

As of March 2011, full-service IMb mailpiece volume for First-Class® and Standard
Mail® accounted for about 36 percent of the total business mail volume for these
classes. With the number of mailers using full-service IMb expected to grow, having the
ability to electronically reconcile Postal Service MPE mailpiece scans to mailer-
submitted electronic documentation becomes more important.




3
    Mailing Evaluation Readability Lookup INstrument (MERLIN).


                                                         2
Intelligent Mail: Realizing Revenue Assurance Benefits                                                     DA-AR-11-010




IM Scan Rates Can be Used for Exception Reporting and Customer Follow-Up

Our analysis of full-service IMb scan rates indicate that some mailings that met
business mail acceptance requirements exhibited low scan rates when processed on
MPE. Our audit also revealed that the Postal Service does not have a tolerance level for
low scan rates. Therefore, since there was no published scan rate requirements for full
service IMb mailings, we used the MERLIN barcode readability thresholds4 to help
quantify our results. We chose these thresholds because they were already established
as a business mail acceptance criteria.

We randomly selected 275 full-service IMb postage statements for review. The mailings
for 262 of these postage statements were processed on MPE and had an average IMb
scan rate of 96 percent. Scan rates for 235 of the 262 mailings (92.6 percent of the
associated mailpieces) ranged from 90 to 100 percent and had an average scan rate of
about 99 percent. Twelve and 15 of the 262 had scan rates between 80 and 90 percent
or were below 80 percent, respectively. Mailings associated with the 262 postage
statements had 1,070,148 mailpieces (or 4.6 percent) that required manual handling
(see Table 1 for details). We excluded the remaining 13 of the 275 postage statements
from our analysis as they were not finalized and scan data was not available.

           Table 1 – OIG Scan Rates Analysis (First-Class and Standard Mail)

                                                                                    Pieces at
                          Average                                                   Risk for
          Scan                            Postage                Mailpieces                            Rate At
                           Scan                                                      Manual
          Rates                          Statements              Presented                              Risk
                           Rate                                                     Handling

        90 -100%              98.8%                 235           21,752,850           530,176                2.3%
         80-89%                  86.7                 12             639,247             79,902                 0.3
          0-79%                  59.1                 15           1,111,195           459,970                  2.0
             Totals           96.0%                 262           23,503,292         1,070,148                4.6%

Low scan rates can result from many factors such as the quality of mail preparation,
weaknesses in the mail entry acceptance process, problems with the Postal Service’s
MPE, or external non-machine related factors. Postal Service engineering personnel
have identified more than 40 contributing factors that can lead to low scan rates. Some
notable Postal Service contributors to low scan rates include:

    Maintenance not properly adjusting the mail feeder.
    Double feeds by equipment.
    Operators not jogging the mail correctly.
4
 Eighty to 89 percent is the automation readability rate for business mailers not participating in the full service IM
program to receive at least partial automation discounts. Mailers are not eligible for discounts if readability rates are
below 80 percent. This acceptance criteria is the Postal Service’s internal control to encourage mailers to properly
prepare mail for automation processing.


                                                             3
Intelligent Mail: Realizing Revenue Assurance Benefits                                                  DA-AR-11-010




Likewise, mailer examples that contribute to low scan rates include:

    Barcode legibility.
    Envelope window glare or mail shift.
    An unreadable or incorrect IMb.

It was beyond the scope of this audit to identify all the specific causes of low scan rates;
however, regardless of the cause(s), the Postal Service must use more expensive
manual processing when employees cannot process the mail on automation equipment.
The lower the scan rate, the more it costs the Postal Service to process the mail.

Therefore, the Postal Service needs to establish a tolerance for following up on
full-service IM mailings with low scan rates. Since there were no defined tolerances for
full-service IM, we calculated the additional cost of manually processing mail with
tolerances set at 1 percent, 5 percent, and 10 percent. The additional cost for manually
processing full-service IM mail ranged from $36 million to $360 million annually.

          Table 2: Manual Mail Processing Costs At Various Tolerance Levels
                             (all amounts are in thousands)

                                           5               Full Service IM                                          7
    Business           Fiscal Year 2010                                  6                       Tolerance Levels
                                                           Participation
      Mail
                    Volume          Revenue           Volume           Revenue             1.0%           5.0%          10.0%
Presort
Letters and       46,225,386      $15,975,300       16,641,139          $5,751,108         $16,649       $83,247    $166,495
Cards
Standard
Letters           48,301,094         9,204,700      17,388,394           3,313,692           17,397       86,985     173,971

High Density
and
                    5,428,043          736,900        1,954,095             265,284           1,955         9,775       19,551
Saturation
Letters
     Total        99,954,523      $25,916,900       35,983,628          $9,330,084         $36,002     $180,008     $360,016


If our observation rate of 4.6 percent is applied to total full-service IM mailpieces, the
Postal Service would have to expend an additional $165,607,452 in manual mail
processing costs annually, or $331,214,904 over the next 2 years regardless of who is
responsible for the low scan rates. See Appendix B for our calculation of other impacts.

We concluded that IM scans are useful for detecting mailings with low scan rates. Not
only do they provide the Postal Service with an opportunity to trend and identify

5
  Public Cost and Revenue Analysis, fiscal year (FY) 2010.
6
  Assumes 36 percent mail volume for full-service IM.
7
  Tolerance levels calculated as follows: full-service IM participation volume x manual mail processing rate of
$100.05/1,000 pieces of mail x percentage.


                                                           4
Intelligent Mail: Realizing Revenue Assurance Benefits                           DA-AR-11-010



business mailers with low scan rates, they can also be the basis for exception reporting,
customer follow-up, and settlement actions.

Recommendations

We recommend the vice president, Mail Entry and Payment Technologies:

1. Establish timeframes for implementing the enhanced/expanded automated
   verifications as described in the original Intelligent Mail infrastructure Decision
   Analysis Report.

2. Develop a tolerance level for low scan rates to use for exception reporting.

3. Develop a process for identifying the cause(s) of low scan rates for customer
   follow-up as warranted.

Management’s Comments

Management partially agreed with the three recommendations and stated the report did
not provide enough information to comment on the presented other impact as there are
many contributing factors to low scan rates. In reference to recommendation 1, the
Postal Service is working with the mailing industry to develop an approach on the future
state of automated verifications as part of the Streamlined Acceptance program
currently underway. The Postal Service will value stream map the current verifications
processes at selected detached mail units and business mail entry units from
October 2011 to February 2012. The results of the value stream mapping will identify
opportunities to automate verifications and streamline the verification and acceptance
process. The Postal Service plans to complete a proof-of-concept and the results will
inform the timeline for requirements, system development, and deployment of
automated verifications.

In reference to recommendations 2 and 3, as part of the proof of concept, the Postal
Service will evaluate the extent to which active and passive scans can be used to
measure mail preparation quality. Analyzing this data will be the basis for establishing
thresholds, as appropriate, and providing near real-time automated feedback to
customers on mail preparation metrics. The timeline for completing management
actions in response to the three recommendations is January 2013. See Appendix C for
management’s comments in their entirety.




                                                     5
Intelligent Mail: Realizing Revenue Assurance Benefits                       DA-AR-11-010




Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. While the OIG appreciates management’s
commitment to automating business mailer revenue verifications, the timeline for
completing the proof-of-concept in January 2013 places implementation of the
developed solution and mailer migration several years away.

Regardless of the cause for low scan rates, there is an increased cost of manually
processing mail. The sooner the Postal Service identifies the causes of low scan rates
the sooner the added cost for manually handling discounted business mail will be
reduced. While it was outside the scope of the audit to identify the numerous potential
causes of low scan rates, we look forward to sharing our methodology used to arrive at
the $331 million of other impact and we may be conducting further work to identify the
causes of low scan rates.

The OIG considers all the recommendations significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                     6
Intelligent Mail: Realizing Revenue Assurance Benefits                          DA-AR-11-010




                              Appendix A: Additional Information

Background

The IM program is intended to provide end-to-end visibility of the mail where mailers’
pallets will be scanned at acceptance and induction points. The system is expected to
provide mailing data to generate reports on internal service performance and detailed
mail profiles on where mail was dropped and processed and the volume of that mail.
The end results expected are better visibility into the mailstream for both the Postal
Service and its customers, as well as assurance that revenue received and postage
paid are accurate.

As depicted in Illustration 1, the IMb is a 65-bar Postal Service barcode used to sort and
track letters and flats. Unlike the POSTNET barcode that only contains the delivery
point ZIP Code, the new IMb contains additional fields such as the Service Type
Indicator, Mailer Identification(ID), and Serial Number. These fields expand the ability to
track individual pieces and provide greater visibility into the mailstream. With this IMb, a
mailer can request services such as tracking and address correction all in one barcode.
The IMb allows the mailer to number mail so that each mailpiece can be uniquely
identified. It contains a Mailer ID field that allows the mailer to obtain data about
mailings.

                                Illustration 1. IM Barcode Format




Objective, Scope, and Methodology

Our objective was to assess IM program ability to achieve revenue assurance benefits.
To accomplish our objective, we obtained and reviewed full-service business standard
and First-Class letter postage statements and scan data from PostalOne! and Seamless
Acceptance Service Performance systems, respectively. We also compared mailpiece
counts per postage to MPE automation scans to verify counts and rates paid.
Specifically, we reviewed 64 randomly selected postage statements for IM First-Class
and 211 standard postage statements. Because at the time of our review scan data was


                                                     7
Intelligent Mail: Realizing Revenue Assurance Benefits                          DA-AR-11-010



maintained for no more than 45 days, we judgmentally reviewed statements from four
separate weeks in FY 2011. Further, we reviewed scan data to determine whether
standard and First-Class Mail® was being processed on MPE equipment or sorted
manually. There were 10,680,846 scans associated with the First-Class mailing in our
judgmental sample and 41,002,248 with standard mailings. Additionally, we analyzed
documentation and interviewed IM, operation and engineering management to discuss
our scan data results.

We conducted this performance audit from November 2010 through August 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on July 13 and 27, 2011, and
included their comments where appropriate.

We assessed the reliability of data by comparing summary statistics provided by
management to detail scan data and tracing data to postage statements. We
determined that the data were sufficiently reliable for the purposes of this report.




                                                     8
   Intelligent Mail: Realizing Revenue Assurance Benefits                                 DA-AR-11-010



   Prior Audit Coverage

                                                       Final
                                                      Report
   Report Title           Report Number                Date                 Report Results
Intelligent Mail            IS-AR-09-006             3/31/2009   The Postal Service was not aware of
Barcode Project                                                  the significant complexities and
Planning and                                                     extensive requirements needed for Full-
Application                                                      Service Seamless Acceptance Service
Development Life                                                 Performance. As a result, delays
Cycle                                                            occurred in the design, build, and test
                                                                 schedules. Management generally
                                                                 agreed with the findings, but did not
                                                                 comment on the nonmonetary impact.
Intelligent                 MS-AR-09-006             3/31/2009    Overall, controls were not adequate to
Mail/Seamless                                                     ensure the Postal Service managed
Acceptance Project                                                the program effectively. As a result, the
Management                                                        Postal Service is at risk of project
                                                                  delays and cost overruns.
                                                                  Management disagreed with the
                                                                  conclusions of the audit; however, they
                                                                  agreed they should improve various
                                                                  aspects of project management.
Management                DA-MA-11-001(R)           11/23/2010    Surveys of full-service IM participants
Advisory – Full                                                   disclosed mixed results for program
Service Intelligent                                               usefulness. In addition,
Mail Program                                                      non-participants expressed several
Customer                                                          concerns with the full-service program.
Satisfaction                                                      The primary reasons mail owners did
                                                                  not participate in the full-service
                                                                  program were high start-up costs and
                                                                  limited program benefits. Management
                                                                  generally agreed with the findings and
                                                                  recommendations and stated that they
                                                                  have effective and ongoing efforts in
                                                                  place to address the issues raised in
                                                                  the report.




                                                        9
   Intelligent Mail: Realizing Revenue Assurance Benefits                                                DA-AR-11-010



                                          Appendix B: Other Impacts

                             FY 2010 Volume            OIG Scan Rate          Volume at Risk
                                                                                                      Attributable Cost
                              (Thousands of             Below 90%             (Thousands of
                                 Pieces)                 Tolerance               Pieces)

Presort Letters and
                                      46,225,386                     4.6%             2,126,368             $212,743,094
Cards


Standard Letters                      48,301,094                     4.6%             2,221,850               222,296,125


High Density and
                                       5,428,043                     4.6%               249,690                24,981,482
Saturation Letters

Total Business
                                      99,954,523                     4.6%             4,597,908             $460,020,701
Letter Mail

Full-Service IM
(Mailpiece Volume                                                                     1,655,247
Rate 36%)
Additional Annual
Cost to Manually
Process Mail                                                                                                $165,607,452
($100.05/1,000
Pieces)
              8
Assets at Risk
(Additional Costs)                                                                                          $331,214,904
2 Years




   8
     Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
   inadequate internal controls.


                                                            10
Intelligent Mail: Realizing Revenue Assurance Benefits          DA-AR-11-010



                            Appendix C: Management’s Comments




                                                    11
Intelligent Mail: Realizing Revenue Assurance Benefits   DA-AR-11-010




                                                    12
Intelligent Mail: Realizing Revenue Assurance Benefits   DA-AR-11-010




                                                    13
Intelligent Mail: Realizing Revenue Assurance Benefits   DA-AR-11-010




                                                    14
